 An Overview of the Formation of
Local Workforce Investment Boards
Under the Workforce Investment Act




           U.S. Department of Labor
           Office of Inspector General
Office of Analysis, Complaints and Evaluations



        Report No. 2E-03-390-0001
     Date: March 30, 2000
EXECUTIVE SUMMARY

Purpose

The purpose of this study is to provide an overview of the formation of local workforce
investment boards (WIBs) under the Workforce Investment Act (WIA). These case studies
show challenges and opportunities facing WIBs. We selected Indiana and Kentucky
because they did not allow local workforce investment areas to grandfather in any of their
existing local workforce development boards. These States required local areas to form
new boards that met WIA’s membership requirements. In addition, Indiana and Kentucky
had certified all WIBs.

We visited four sites, two in Indiana and two in Kentucky. The four sites we visited were
very different in their labor market conditions, contexts and One-Stop histories. These
differences affected the formation of the local workforce investment board and the
selection of One-Stop operators.

Despite these differences, there were several challenges common to all WIBs. These
challenges included board size, the role of staff, funding, and guidance and coordination.

Findings

The boards we surveyed ranged in size from 48 to 53 members. All the WIBs formed an
executive committee and subcommittees. Most of the policy work is being performed at
the committee level. The size of the board is unwieldy and has caused logistical
difficulties for WIB staff. WIB staffers at two of the sites we visited questioned whether it
was necessary to make One-Stop partners board members.

In all four WIBs, board members rely on WIB staff to provide research and information,
particularly on WIA legislation. Staff also ensures that the board meets guidelines and
deadlines. The WIBs were all looking for additional funding in various forms.

A number of those we interviewed expressed their concern that Department of Labor
(DOL) was not coordinating with other Federal agencies, while others expressed
complaints about the lack of guidance and coordination at the State level. Some staff and
board members expressed a desire to have more information on best practices.

Regardless of the challenges facing the new boards, such as managing a large board and
funding, the WIBs we surveyed support the vision of WIA and the idea of creating an
integrated workforce investment system for their local area.




Formation of WIBs                              i                                 2E-03-390-0001
Recommendations

This report contains no recommendations. However, the case studies offer examples of
the opportunities and challenges facing local boards.




Formation of WIBs                         ii                             2E-03-390-0001
TABLE OF CONTENTS

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
       Board Size . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
       Role of Staff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
       Funding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
       Guidance and Coordination . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Appendices
A. State Profiles . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      15
B. WIB Profiles . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      17
C. Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      21
D. Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             22




Formation of WIBs                                                   1                                                      2E-03-390-0001
PURPOSE

     The purpose of this study is to provide an overview of the formation of local
     workforce investment boards (WIBs) under the Workforce Investment Act (WIA).
     These case studies show challenges and opportunities facing WIBs. We
     selected Indiana and Kentucky because they did not allow local workforce
     investment areas to grandfather in any of their existing local workforce
     development boards. These States required local areas to form new boards that
     met WIA’s membership requirements. In addition, Indiana and Kentucky had
     certified all WIBs.

BACKGROUND

     The 1998 Workforce Investment Act (WIA) is the first major reform of the nation’s
     job training system in the last 15 years. WIA embodies seven key principles: 1)
     streamlining services through a One-Stop service delivery system, 2) empowering
     individuals through information and access to training resources through Individual
     Training Accounts (ITA’s), 3) providing universal access to core services, 4)
     increasing accountability for results, 5) ensuring a strong role for Local Boards
     and the private sector in the workforce investment system, 6) State and local
     flexibility and 7) improving youth programs. This report examines the formation of
     local workforce investment boards in two WIA early implementation States –
     Indiana and Kentucky.

     WIA establishes a two-tiered governance structure within a State – a State
     workforce investment board and local workforce investment boards. The
     Governor designates local workforce investment areas in which workforce
     activities are to be administered by a local Workforce Investment Board (WIB).
     Under the legislation, the local Chief Elected Official (CEO) appoints the local
     WIB. The majority of WIB members must be business representatives. The WIB
     must also include representatives from education, labor organizations,
     community-based organizations, economic development and a representative
     from each of the One-Stop partners. One-Stop partners are programs that must
     provide core services through the One-Stop, and include programs authorized
     under WIA, the Wagner-Peyser Act, the Adult Education and Literacy Act, the
     Vocational Rehabilitation Act, the Welfare-to-Work grants, title V of the Older
     Americans Act, postsecondary vocational education under the Perkins Act, Trade
     Adjustment Assistance, veterans employment services under chapter 41 of title
     38 U.S.C., unemployment compensation laws, Community Service Block Grants,
     and employment and training activities carried out by the Department of Housing
     and Urban Development. The Governor sets criteria for appointment of members
     and certifies the WIB.


Formation of WIBs                             2                               2E-03-390-0001
     The WIB focuses on strategic planning, policy development and oversight of the
     local program. It develops the local plan to be submitted for the Governor’s
     approval, designates eligible providers of training services, negotiates local
     performance measures, assists in developing a statewide employment statistics
     system, and designates local One-Stop operators. In addition, the WIB, with the
     agreement of the chief elected official, selects the operator of a One-Stop through
     a competitive process or may designate a consortium of not less than three One-
     Stop partners to operate a center. A WIB may not be designated or certified as a
     One-Stop operator unless agreed to by the chief elected official and the Governor.

     Each One-Stop partner is required to enter into a Memorandum of Understanding
     (MOU) with the local board. The MOU describes (1) the services to be provided
     through the One-Stop system, (2) how the cost of the services and operating costs
     of the system will be funded, (3) methods of referral of individuals between the
     One-Stop Operator and the One-Stop partner, (4) the duration of the MOU, and
     (5) the procedures for amending the MOU.

     The WIB must also establish a Youth Council as a subgroup to the local
     partnership. The youth council is appointed by the WIB to develop portions of the
     local plan relating to youth, recommends providers for youth services and
     coordinates youth activities in the local area.

METHODOLOGY

     Our findings are based on the case studies of four local WIBs. We used the
     following process to develop our study.

     INFORMATIONAL INTERVIEWS

     To gather background information we conducted informational interviews with
     organizations that have experience working on workforce development issues at
     the State and local level. We conducted interviews with the Employment and
     Training Administration’s (ETA) Office of Policy Research, the National
     Association of Workforce Boards (NAWB), the National Governors’ Association
     (NGA) and the National Conference of State Legislatures (NCSL). The objective
     of the interviews was to learn what different WIA stakeholders view as
     implementation issues. Of the issues presented to us, we decided to look at the
     formation of WIBs under WIA.

     REVIEW OF EARLY IMPLEMENTATION STATES

     Next, we contacted WIA Early Implementation States to determine how far along


Formation of WIBs                             3                               2E-03-390-0001
     they were in the implementation process. We obtained from the NGA website a
     list of the 16 States DOL has approved for early implementation of WIA. Using
     the contact list on the NGA website, we conducted the telephone interviews with
     11 of the 16 States. Nine of the States we contacted were forming new WIBS. Of
     these nine, only Indiana and Kentucky had certified all their WIBs.

     SELECTION OF SITES

     Because the purpose of our case studies was to learn what implementation has
     been achieved, understand why implementation is occurring in a certain manner,
     and identify unanticipated aspects of implementation, we chose sites that are
     representative of the different ways WIA may be implemented. We interviewed
     WIA State staff in Indiana and Kentucky. We then visited local sites. At each local
     site we interviewed WIB staff and a cross section of WIB members. The objective
     of the interviews was to learn what different stakeholders view as implementation
     issues.

SCOPE

     Because States have a great deal of flexibility in structuring local workforce
     investment boards, these case studies may not be representative of all WIBs.
     However, they do offer examples of the opportunities and challenges facing local
     boards.

     NORTHERN INDIANA

     The Northern Indiana Workforce Investment Area is comprised of 4 counties in
     northern Indiana with a population of 550,000. Included in this area is South
     Bend, Indiana. The WIB has 58 members, including the Chief Executive Officer or
     President of the WIB.

     In forming the board the Local Elected Officials (LEOs) and WIB staff established
     a Membership Development Committee to review nominations. After recruiting
     members and ascertaining that membership satisfied State and federal
     requirements, the committee forwarded nominations to local elected officials for
     appointment. The LEOs required JTPA Private Industry Council (PIC) members
     who were interested in serving on the board to go through the same

     nominating process as new members. Of 35 PIC members, 16 transitioned to
     the WIB.

     NORTH CENTRAL INDIANA


Formation of WIBs                            4                                2E-03-390-0001
     The North Central Indiana workforce investment area is composed of 6 rural
     counties. The WIB has 53 members.

     When forming the WIB, the CEO agreed to keep the PIC intact and add the new
     members mandated by WIA. The CEO, staff and PIC reasoned that keeping the
     PIC together would provide the WIB with a core group that was accustomed to
     working together.

     LOUISVILLE/JEFFERSON COUNTY

     The Louisville/Jefferson County Workforce Investment Area encompasses a
     metropolitan area with a population of approximately 700,000. The WIB has 49
     members.

     When developing the WIB membership, the staff worked very closely with the
     Mayor, County Judge Executive (Chief County Official) and the Metropolitan
     Chamber of Commerce, Greater Louisville, Inc. Approximately 75% of WIB
     members are new with virtually all of the business representatives being newly
     appointed. The Mayor and the County Judge remain very active on the board.
     PURCHASE/PENNYRILE

     The Purchase-Pennyrile Workforce Investment Area encompasses 17 counties in
     rural western Kentucky and a population of 387,000. The WIB has 48 members.

     PIC/WIB staff asked each LEO to make nominations from his or her county.
     About half the board members are new. LEOs used the formation of the WIB as
     an opportunity to remove PIC members who were not participating. Increased
     size was not a problem. The PIC had 43 members. Under WIA, board size only
     increased by 5 to 48.

     For State profiles on Indiana and Kentucky see Appendix A. For more
     information on each WIB see Appendix B.




Formation of WIBs                            5                               2E-03-390-0001
FINDINGS

     Local boards face several challenges including board size, role of staff, funding
     and guidance and coordination.

     BOARD SIZE

     Committee Structure

     Because of WIA’s mandated membership requirements, the sizes of the boards
     we studied ranged from 48 to 58 members. All the WIBs formed an executive
     committee and subcommittees. The executive committees have the power to
     make routine decisions concerning the budget and business plans without
     consulting the full board. WIB staffs and board members believe it is unrealistic to
     expect such a large board to make every decision.

     In Louisville/Jefferson County, committee recommendations first go through the
     Executive Committee before being presented to the full board.
     Louisville/Jefferson County’s Executive Committee is primarily composed of
     business representatives. One staff member of Louisville’s LEO who helped form
     the WIB wanted the Executive Committee to be made up exclusively of business
     representatives. She felt that because the WIB was to be business-driven,
     business people should be the key decision makers. She also wanted business
     people to be free to discuss issues and raise questions in the committee
     meetings without worrying about offending other WIB members. The two
     education representatives lobbied to be on the Executive Committee because
     they did not agree that it should be comprised exclusively of business people.
     Currently, Louisville/Jefferson County’s Executive Committee is predominantly
     made up of business people with two representatives from the education
     community.

     In North Central Indiana, the Executive Committee is predominantly made up of
     former PIC members. Because the North Central PIC had been planning for two
     years prior to WIA to separate the board from the provision of services, the staff
     and WIB Chairman felt it was important to keep the core group of PIC members
     together. They had a history of working together and all understood what the WIB
     was trying to accomplish. While using former PIC members to form the Executive
     Committee did solve some problems, it may have created others. One of the WIB
     members who was not on the Executive Committee, felt that the Executive
     Committee was making decisions that should have been made by the full board.
     The WIB staff indicated that they were struggling with what decisions could be
     made by the Executive Committee and what decisions should be voted on by the


Formation of WIBs                             6                                2E-03-390-0001
     full board.
     Most of the policy development is being performed at the committee level. The
     Louisville/Jefferson County WIB Chairman cautioned against having too many
     committees and being perceived as overly bureaucratic. Because of its size, full
     board meetings serve more as “fact-giving” sessions, than “fact-finding” sessions.
     However most staff and board members were pleased with the level of discussion
     of issues at full board meetings. The full board votes were not viewed as a
     “rubber stamp” for staff, committee or Executive Committee decisions.

     Logistics

     Board size can also cause logistical problems. All of the boards held quarterly full
     board meetings, with the exception of Purchase/Pennyrile which held monthly full
     board meetings. North Central has difficulty finding places large enough to
     accommodate the entire WIB. All the boards except for Louisville/Jefferson
     County, whose region only covers one county, rotate the location of the meeting.
     Meeting location was an important consideration for Purchase/Pennyrile, which
     encompasses 17 counties. The Purchase/Pennyrile staff distributed a survey
     asking board members when and where they would like to meet. It is a three hour
     drive from one end of the region to the other. So far the monthly full board
     meetings have been held at State parks located in the center of the region.
     However, this means that many members are traveling an hour and a half to
     attend a 2 or 3 hour meeting. The members we talked to said attending a board
     meeting meant giving up a day; however, they also said they did not mind the
     sacrifice as long as they felt the board was effective in developing the local
     workforce.

     All the WIBs we surveyed have only had three or four full board meetings. None of
     them have had difficulty reaching a quorum. Staff believes it helps to set board
     meetings far in advance so that members have several months notice.
     Purchase/Pennyrile allows WIB members to send proxies. The representative of
     Migrant and Seasonal Agricultural Worker Programs found this very helpful. He is
     the one representative of Migrant and Seasonal Agricultural Worker Programs in
     the State and serves on several WIBs. Sending a proxy allows his programs to
     be represented when he is unable to attend. Several of the staff suggest using
     electronic mail for meeting reminders. Phoning a board of 50 would be too
     burdensome. Electronic mail also saves mailing and copying costs. In North
     Central, the staff emails executive committee members agendas and handouts,
     which they are expected to print and bring to the meetings.

     Almost everyone we talked to commented that the size of the board is unwieldy.
     Neither members nor staff expected much of the work to be done by the full board.
     On the other hand, there was general agreement that the board benefitted from

Formation of WIBs                             7                                2E-03-390-0001
     having the diverse viewpoints of labor, education, business, economic
     development and community-based organizations at the table. For example, in
     Louisville/Jefferson County, a representative of a community-based organization
     believed that business people did not understand how to help those most in need.
     They were more concerned with workers they could quickly move into the
     workforce. This representative sees his role as educating the business
     community and making sure the board serves everyone. In Purchase/Pennyrile
     service providers felt a One-Stop 1-800 number would be too expensive. The
     business representatives stressed how important a 1-800 number was to good
     customer service.

     For the board partnership to continue to work, the board must be able to balance
     the interests of the public and private sector. However, two of the WIB staffs we
     talked to questioned whether it was necessary to make One-Stop partners board
     members. Not only did their membership greatly increase the size of the board,
     but it also raised conflict of interest questions.

     ETA’s response

     “Large boards are difficult for local areas to manage. However, not only are the
     specific membership requirements described in the Act, the commitment to
     inclusion and partnership is fundamental to the spirit of the Act. This was
     recognized by the local areas visited for this study. We anticipate that language
     in our final regulations will offer some guidance to local areas in how to manage
     the size of the boards and still meet the letter and the intent of the Act.”

     ROLE OF STAFF

     The size of the board strains staff resources. In North Central Indiana
     2 ½ staff manages a 53 member board. In Northern Indiana, the staff felt they had
     done a good job creating enthusiasm and energy on the WIB, but questioned
     whether they would have the resources to implement all the WIB’s initiatives.
     Louisville/Jefferson County has a staff of 18. However, only 4 or 5 work directly
     with the WIB, and Louisville/Jefferson County staff also provides administrative
     support for another workforce investment area. The Purchase/Pennyrile WIB
     utilizes 2 staff persons to coordinate their activities.

     In all four regions the WIB staff is comprised of former JTPA staff that stayed on
     after the transition from PIC to WIB. The board members we talked to felt the staff
     had the best understanding of WIA. Board members relied on WIB

     staff to provide research and information and to ensure that the board met


Formation of WIBs                             8                               2E-03-390-0001
     guidelines and deadlines.

     All the staffs provided board members with background information on WIA.
     North Central Indiana and Northern Indiana held training sessions for WIB
     members. Purchase/Pennyrile mailed WIB members a notebook with
     informational materials prior to the first meeting. In Louisville/Jefferson County,
     the staff has engaged in what they refer to as “chunk learning.” Instead of
     overwhelming the board with the entire act, the board is learning a section or
     “chunk” at a time.

     Despite the training and educational efforts put forth, some members still remain
     unclear regarding rules, regulations and organizations under the new legislation.
     WIA is very complex and the WIB staffs fear that if business people become
     mired in the details, they will feel as if nothing is being accomplished and lose
     interest. Many of the WIB members who transitioned from the PIC mentioned that
     WIA might be especially confusing for new members who were unfamiliar with the
     programs and how government works.

     ETA’s response

     “Staff have the responsibility to provide the research and technical support for
     the local workforce investment board to function effectively. The board is to
     assume a strategic role in the workforce investment system, and remain at arms
     length from day-to-day operational issues. This means that the local board
     must maintain a separate staff that remains independent of the One-Stop
     operator.”

     FUNDING

     Funding Sources

     All the WIBs we talked to were looking for additional funding to develop and
     implement workforce development strategies. The Northern Indiana WIB receives
     funding from 20 different funding sources including the U.S. Department of Labor,
     Indiana Department of Workforce Development, Indiana Family and Social
     Services Administration, Indiana Student Assistance Commission, City of South
     Bend and Fee-for-Service. The staff is considering whether to become a
     membership organization to build a funding base. The staff is also considering
     charging fees for workshops and products produced by the WIB. The
     Louisville/Jefferson County WIB’s annual budget is around $17 million and
     includes multi-year grants comprising competitive welfare-to-



Formation of WIBs                              9                                 2E-03-390-0001
     work funds; State formula grants; incumbent worker grants; and fiduciary
     sponsorship and resources via the City of Louisville.

     Negotiation of MOUs

     All four WIBs have negotiated MOUs with One-Stop partners. Both Northern
     Indiana and North Central Indiana have very vague MOUs. Basically, they are
     agreements to cooperate and do not address cost allocation issues. No one that
     we talked to in Indiana was optimistic that MOUs would provide for resource
     sharing. Louisville/Jefferson County’s MOUs addressed specifics involving
     service delivery, but not cost allocation. The WIB staff and the One-Stop partner
     we spoke with both believed that once the State issued a cost allocation formula,
     the MOUs would provide for resource sharing. Purchase/Pennyrile also had
     MOUs, but no cost allocation. Unlike in Louisville/Jefferson County,
     Purchase/Pennyrile’s partners were arguing that they had no money to share in
     common costs.

     Kentucky WIBs may be in a better position than Indiana to negotiate with One-
     Stop partners because all the mandated partners and the WIA Title I funds fall
     under the same State agency, except for programs directly funded by the federal
     government such as Jobs Corps and Migrant and Seasonal Workers Programs.
     Many WIB members commented that the WIB did not have a carrot or a stick to
     guide other One-Stop partners to allocate costs or coordinate services. This lack
     of incentive was especially a problem in the North Central area where the One-
     Stop was being operated by a consortium of partners. The WIB was mandated to
     establish a One-Stop, yet they did not feel they were given the tools to do so.

     ETA’s response

     “The passage of the Workforce Investment Act was not accompanied by
     substantial new funding. Instead, it is hoped that partnership between and
     among multiple programs will provide the local boards with opportunities to
     realize increased efficiency and economies of scale. The Act, paradoxically,
     anticipates increased services, improved performance, more strategic planning,
     and at the same time, restricts administrative costs at the local level to only 10
     percent of the funds available. The final regulations will provide a definition of
     ‘administrative costs’ that will allow local boards to function, but funding will be a
     constant and critical issue.”




Formation of WIBs                             10                                 2E-03-390-0001
     GUIDANCE AND COORDINATION

     Guidance from Department of Labor

     In Kentucky, State and local staff and local WIB members expressed concern
     about insufficient information and guidance from the U.S. Department of Labor.
     Kentucky’s State staff told us that DOL takes months to answer their questions
     and sometimes they give no answers at all. The State staff has been frustrated
     when they have made policy decisions and DOL finds the policy unacceptable,
     but offers no guidance as to what they are looking for. Louisville/Jefferson
     County’s staff chose to move forward on decisions rather than wait for DOL to
     answer their questions. Purchase/Pennyrile staff fear that business people will
     lose interest if they are constantly told they have to redraft policy. In Kentucky,
     when WIB directors are unable to get an answer from DOL, the 11 WIB directors
     come to an informal agreement among themselves. State and local staff realize
     part of the lack of guidance comes from the fact that Kentucky is an early
     implementation State. However, they hope that DOL will not force them to change
     course later. At the time we conducted our site visits, the Department of Labor
     had not issued final regulations.

     When asked why business participation and interest in the WIB was so strong,
     many responded that low unemployment has made workforce development an
     important issue for the private sector. Businesses cannot continue to grow if
     employers cannot find qualified workers. While praising WIA’s flexibility, some
     board members mentioned the fear of the “tightening of regulations” that occurred
     under JTPA. Purchase/Pennyrile WIB members cited JTPA’s On-the-Job
     Training programs: business people found the paperwork requirements too
     cumbersome and chose not to participate in the program.

     If WIA’s regulations become too prescriptive, business people may look to other
     organizations to meet their workforce development needs. For example, in
     Kentucky, both workforce investment areas that we visited contained a Chamber
     of Commerce that is raising money from private industry for workforce
     development. Chambers of Commerce would be in the position to fund programs
     without complying with federal regulations. Louisville/Jefferson County was also
     concerned that the Chamber might siphon private money that could go through the
     WIB.

     ETA’s response

     “To the extent that State and local flexibility are hallmarks of the new workforce
     investment system, answers may not be available from the Federal staff, but


Formation of WIBs                            11                                2E-03-390-0001
     must be developed jointly by the partners. The Department of Labor has been
     engaging the system in the development of policies so that all parties not only
     are aware of the information as it is developed, but have a greater
     understanding of the purpose and background. Formal documents are
     disseminated through the assistance of Intergovernmental Organizations
     representing partners and stakeholders, and are posted on the
     usworkforce.org website for the general public.”

     Federal Coordination

     Staff also expressed concern that DOL was not coordinating with other federal
     agencies. For example, the Department of Education (ED) houses
     Adult Education programs which are mandatory One-Stop partners. The
     Kentucky State staff mentioned that DOL and ED have two different definitions of
     the word “placement.” These types of problems make it difficult for programs to
     coordinate services. Each program has to be concerned with meeting their own
     performance measures. The WIBs and One-Stop partners are also concerned
     that even if the State works out cost allocation formulas, One-Stop partners will not
     be able to share resources without violating their authorizing legislation and
     regulations.

     ETA’s response

     “Over the past several months, the Department of Labor has been working with
     the Federal Partners at the Departments of Education, Health and Human
     Services, Housing and Urban Development, Agriculture and other Federal
     Agencies to develop tools and guidance to assist States and local areas as
     they design and implement One-Stop service delivery systems.

     An Assistant Secretary-level group representing the Federal Partners meets on
     a monthly basis to address cross-cutting issues and provide joint guidance
     during the course of implementing the Workforce Investment Act. Unified
     Planning Guidance was published in January to streamline the process for
     States to coordinate programs. Recent discussions are focused on the
     development of resource allocation guidelines to help State and local operators
     deal with costs and administrative requirements associated with multiple
     Federal funding streams.”

     Information Sharing

     Because they are in early implementation States, the WIB staff also spends a


Formation of WIBs                             12                                2E-03-390-0001
     considerable amount of time advising WIBs in other States. The WIBs would not
     only like to see more coordination at the federal level, but also see more
     information from DOL on best practices. One WIB member suggested that DOL
     set up an intranet site for WIBs. The site would serve as a quick way to get
     information from a central location. Currently, WIB staff and WIB members attend
     meetings and conferences held by ETA and other organizations such as the
     National Association of Workforce Boards.

     Coordination of State Agencies

     In Indiana WIB staff and WIB members expressed more frustration at the State
     level than in Kentucky. Both Indiana WIBs believe that the State could have taken
     a stronger lead in WIA. Both staffs used the separation of the board from the
     direct provision of services as an example of where the State had waivered.
     Indiana originally required boards to divest themselves from service delivery by
     July 1, 2000. After considering the interim regulations, Indiana changed the state
     plan and policy to allow board staff to continue delivering services as long as the
     staff was part of a consortium of partners and not the sole One-Stop operator.
     Also, in Indiana mandated partners cross State agencies. The Indiana WIBs do
     not think that the State agencies are coordinating with one another, which causes
     coordination problems at the local level.

CONCLUSIONS

     The four sites we visited were very different in their labor market conditions,
     contexts and One-Stop histories. These differences affected the formation of the
     local workforce investment board. Louisville/Jefferson County decided to form an
     entirely new board. Northern Indiana and Purchase/Pennyrile required PIC
     members to go through the same nominating process as new members. Both
     boards have WIB members that served on the PIC. North Central Indiana
     decided to retain their PIC as the core of the WIB and add the new members
     mandated by WIA.

     Although the boards were very different, they were all struggling with many of the
     same problems such as managing a large board and funding. As early
     implementation States, Indiana and Kentucky are struggling because they are
     among the first States to carry out the act. One WIB staffer described it as “trying
     to fly the airplane while you’re building it.”

     Despite challenges, the WIB staff and WIB members that we interviewed support
     the vision of WIA and the idea of creating an integrated workforce investment
     system for their local area. They see the WIB’s role as not just managing program


Formation of WIBs                             13                                2E-03-390-0001
     funding, but developing a system for workforce development.

     RECOMMENDATIONS

     This report contains no recommendations. However, the case studies offer
     examples of the opportunities and challenges facing local boards.

     Contributors to this report:

     Mary Elizabeth McNeill
     Lifang Chiang
     Dennis J. Raymond

     Amy C. Friedlander, Director, Division of Evaluations and Inspections




Formation of WIBs                           14                               2E-03-390-0001
                                                                     APPENDIX A


     STATE PROFILES

     INDIANA

     Indiana began transitioning to an integrated workforce development system in the
     mid 1980s. In 1987, the State merged the Indiana Office of Occupational
     Development, which administered Job Training and Partnership Act (JTPA)
     funds and the Indiana Employment Security Division, which administered Wagner-
     Peyser and Unemployment Insurance funds, into the Department of Employment
     and Training Services (DETS). In 1991, the State formed the Department of
     Workforce Development (DWD) by merging DETS with the Commission on
     Vocational and Technical Education and Office of Workforce Literacy. Although
     DWD houses many of the One-Stop partners required by WIA, the Family and
     Social Services Administration administers Vocational Rehabilitation, Community
     Services Block Grants and Title V Older Workers programs. By 1992, each of
     Indiana’s 16 JTPA Service Delivery Areas had at least one One-Stop, also known
     as a Workforce Indiana Center, which co-located JTPA, Wagner-Peyser and
     Unemployment Insurance staff. Indiana established a State Human Resources
     Investment Council (HRIC) in 1993. Indiana grandfathered in the HRIC as its
     State Workforce Investment Board for one year. Indiana passed a State law
     requiring the HRIC to meet WIA membership composition requirements by July 1,
     2000.

     Pursuant to the wishes of the local elected officials (LEOs), Indiana retained the
     JTPA service delivery areas as the WIA workforce investment areas. However, in
     1998 Indiana conducted a study that identified 12 economic regions or workforce
     investment markets. WIBs located in the same economic regions must submit a
     joint economic development plan and coordinate their efforts. The economic
     regions will be used to the extent possible to redraw administrative boundaries if
     a WIB fails to meet its performance measures.

     In addition to WIA WIB requirements, Indiana requires that Organized Labor
     comprise 15% of the local boards. The State also requires WIBs to form
     Incumbent Worker Councils. These councils deal with issues affecting the under-
     employed and are to have the same relationship to the WIB as Youth Councils.

     Indiana has certified all local WIBs. Certification was based on minimum WIA
     requirements, mainly board composition. Indiana would like to establish a
     “second-tier” of board certification based on WIB performance. Indiana is also


Formation of WIBs                            15                              2E-03-390-0001
     starting to charter One-Stops. Once chartered, a One-Stop may use the
     neutral identifier, Work One. The State’s goal is to identify and reward quality
     WIBs and One-Stops through the chartering process.

     KENTUCKY

     Like Indiana, Kentucky established One-Stops before WIA. Kentucky’s One-Stop
     delivery system was parallel to its JTPA program. One-Stop boards were
     separate from PICs and had different administrative boundaries. When the State
     decided to designate workforce investment areas under WIA, Kentucky had 120
     counties, 11 JTPA service delivery areas and 15 Area Development Districts, in
     addition to the One-Stop administrative boundaries. One of the JTPA service
     delivery areas that contained 23 rural counties was a concentrated employment
     program and as a consequence, it qualified for automatic designation under WIA.
     The State agreed to designate the JTPA service delivery areas as workforce
     investment areas; however, none of the areas could grandfather in their PICs. Any
     PIC member who wanted to serve on the WIB, had to go through the same
     nomination process as new members. Kentucky also decided to form a new
     board at the State level.

     The Cabinet for Workforce Development provides State oversight of WIA. The
     Cabinet for Workforce Development contains agencies that are responsible for
     JTPA, Carl D. Perkins Vocational and Applied Technology Education Act, the
     Adult Education Act, the Vocational Rehabilitation Act, the School-to-Work Act,
     and the One-Stop Career Center Initiative. In addition, the Cabinet houses the
     State’s Occupational Information Coordinating Committee, the State Board for
     Adult and Technical Education, the State Board for Proprietary Education, and the
     Workforce Partnership Council. The State staff attributes much of Kentucky’s
     success in implementation to increased interaction and
     communication among State agencies.

     The State staff also attributes the State’s success to Kentucky’s Governor, who
     provides strong State leadership for WIA implementation. State staff told us that
     the Governor decided that Kentucky should be an early implementation State and
     has provided the Cabinet of Workforce Development’s Office of Training and
     ReEmployment with the support needed to make it happen.




Formation of WIBs                             16                                2E-03-390-0001
                                                                       APPENDIX B


     WIB PROFILES

     NORTHERN INDIANA

     Board Formation

     In forming the WIB, the staff worked on building a diverse board with equitable
     county representation. The staff divided board slots among counties based on
     population. They also retained a few slots for entities that represented the region.
     As required by WIA, appropriate entities were asked to make nominations to the
     board. A Membership Development Committee reviewed the nominations. The
     committee and the staff met with and personally recruited potential WIB members.
     After the committee recruited members and ascertained that membership would
     meet State and federal requirements, the nominations were forwarded to local
     elected officials for appointment. The Chief Elected Official appointed regional
     representatives. JTPA Private Industry Council (PIC) members who were
     interested in serving on the board were required to go through the same
     nominating process as new members. Of 35 PIC members, 16 transitioned to the
     WIB.

     One-Stop Operations

     One of the more difficult issues for the WIB has been separating the WIB from
     delivery of service. After much discussion, the WIB has decided to use a
     competitive process to select the One-Stop operator. The Systems committee
     was originally going to recommend that the board designate a consortium of
     partners as the operator, but the committee and the board decided that in order to
     be “an honest broker” they needed to adopt a competitive process. One of the
     reasons the board hesitated to choose the competitive option was because the
     decision affected 50 jobs. The WIB hopes that the current employees will form a
     new non-profit entity. For the first year, the WIB will enter into a sole source
     contract with the new entity. The next year the process will be opened to the
     public. The WIB fears that if they are not allowed to sole source contract the first
     year, then the new entity will not be able to compete with established
     organizations that have a performance record.




Formation of WIBs                             17                               2E-03-390-0001
     NORTH CENTRAL INDIANA

     Board Formation

     In 1996, the North Central Indiana PIC decided to separate from the provision of
     services. PIC members and staff held several retreats and planning sessions to
     discuss the transition. When forming the WIB, the CEO agreed to keep the PIC
     intact and add the new members mandated by WIA. The CEO, staff and PIC
     reasoned that keeping the PIC together would provide the WIB with a core group
     that worked well together and understood the transition plan. This way, the WIB
     would retain a certain knowledge base that it would not have had otherwise. As
     one WIB member put it, keeping the PIC together allowed the WIB “to hit the
     ground running.”

     The North Central Indiana workforce investment area is composed of 6 rural
     counties. When the staff started recruiting new members, they had difficulty
     attracting the level of business person they wanted. Because North Central
     Indiana is a rural area and does not have a large number of businesses, many of
     the business leaders were already involved in numerous community activities.
     Two of the area’s large manufacturing employers chose not to participate. In
     addition, one of the area’s Chambers of Commerce did not want to make
     nominations because they felt that the 4 to 6 hour per month time commitment
     was too much to ask of its members.

     The staff also had problems meeting the State requirements for labor
     representation. Under Indiana’s requirements for WIB certification, the board
     went from two labor positions with the PIC, to eight under WIA. The central labor
     council took three months to make nominations. One of the major employers in
     the area is Chrysler; however, the United Auto Workers are not represented on
     the board because they are not affiliated with the AFL-CIO and therefore not part
     of the central labor council. One WIB member also pointed out that not all of the
     counties contain organized labor and he would like to see workers who are not
     unionized represented on the board.

     One-Stop Operations

     Although the board and the staff see their roles as developing a workforce
     development system and working on “big picture” issues such as economic
     development, the WIB and the staff are spending much of their time dealing with
     the day-to-day issues of the One-Stop. The WIB decided to designate a
     consortium of 5 One-Stop partners as operator. Although North Central has had a
     One-Stop for several years, the former One-Stop did not involve as many partners


Formation of WIBs                            18                               2E-03-390-0001
     or partners from different State agencies. Unable to purchase or lease a new
     building, the new partners have located into the old One-Stop building, which is
     owned by the Department of Workforce Development. The board is wrestling with
     management concerns such as how to allocate resources and share staff. The
     staff believes that one of the issues is lack of leadership. While the partners are
     co-located, they are not yet unified in their efforts. The WIB would like to hire a
     manager funded jointly by the partners to provide leadership and guidance to all
     employees. Currently, there is one One-Stop in the four county region.

     LOUISVILLE/JEFFERSON COUNTY

     Board Formation

     The Louisville/Jefferson County Workforce Investment Area encompasses a
     metropolitan area with a population of approximately 700,000. When developing
     the WIB, the staff worked very closely with the Mayor, County Judge Executive
     (Chief County Official) and the Metropolitan Chamber of Commerce, Greater
     Louisville, Inc. The staff had no problem recruiting new members. The support of
     the local elected officials and Chamber helped form a very powerful WIB, which is
     comprised of Louisville/Jefferson County’s business and community leaders.
     Approximately 75% of WIB members are new, with virtually all of the business
     representatives being newly appointed. The Mayor and the County Judge remain
     active on the board.

     One-Stop Operations

     Prior to the formation of the WIB, the local elected officials decided that they
     wanted to divest the WIB from the provision of services and institute a competitive
     process to select a One-Stop operator. This decision meant a staff reduction.
     The JTPA/PIC staff went from 60 to 18. Both the local elected officials and the
     WIB Executive Director believe this was the right decision. The
     Louisville/Jefferson County Area has four One-Stops. The operation of the One-
     Stops is contracted out to Career Resources, Inc (CRI). CRI’s contract to operate
     the centers expires on June 30, 2000; a Request for Proposals (RFP) was issued
     in January 2000 for solicitation of service provision beginning in July 2000.

     PURCHASE/PENNYRILE

     Board Formation

     The Purchase-Pennyrile Workforce Investment Area encompasses 17 counties in
     rural western Kentucky and has a population of 387,000. The area combines two


Formation of WIBs                            19                               2E-03-390-0001
     Area Development Districts, the Purchase Area Development District and the
     Pennyrile Area Development District. Area Development Districts (ADD) are
     economic development regions that were formed in the 1960's. The WIB staff is
     housed at the Pennyrile Area Development District offices, and the Pennyrile
     ADD serves as the Purchase/Pennyrile’s fiscal agent or grant recipient. Each
     ADD holds a monthly meeting of local elected officials including mayors and
     county judges. These meetings give the WIB director and staff an opportunity to
     brief local elected officials. The Chairman of each of the two ADDs serve as the
     Chief Elected Officials on the board.

     Each local elected official was asked to make nominations from his or her county.
     About half the board members are new. LEOs used the formation of the WIB as
     an opportunity to remove PIC members who were not participating. Increased
     size was not an issue. The PIC had 43 members. Under WIA, board size only
     increased by 5 to 48.

     One-Stop Operation

     WIB staff delivers WIA Title 1 services at the One-Stops. Under WIA, a board
     may continue to deliver services with the permission of the Governor. Kentucky’s
     Governor granted his permission for Purchase/Pennyrile because the WIB was
     able to demonstrate that no one else in the area could provide the services. The
     PIC got very few responses to Welfare-to-Work and summer youth Requests for
     Proposals. The responses they received were not of high quality. The staff finally
     resorted to combining a fill-in-the-blank form with the narrative.

     The most pressing concern for the WIB since its formation has been establishing
     a dislocated workers policy. Prior to WIA, the board did not operate the area’s
     dislocated workers program. The transition to WIA has been coupled with the
     loss of 2000 jobs in the area. The WIB has not been able to concentrate on long
     term planning. Instead, it has been faced with meeting the immediate needs of
     the area’s dislocated workers. The WIB staff is proud of the fact that they served
     dislocated workers while developing their policy. No one was forced to wait while
     the board set policy.




Formation of WIBs                            20                               2E-03-390-0001
                                                                APPENDIX C


     ACRONYMS

             ADD    Area Development District

             CEO    Chief Elected Official

             DOL    Department of Labor

             ED     Department of Education

             ETA    Employment and Training Administration

             HRIC   Human Resource Investment Council

             ITA    Individual Training Account

             JTPA   Job Training and Partnership Act

             LEO    Local Elected Official

             LWIB   Local Workforce Investment Board

             MOU    Memorandum of Understanding

             NAWB   National Association of Workforce Boards

             NCSL   National Conference of State Legislatures

             NGA    National Governors’ Association

             OIG    Office of Inspector General

             PIC    Private Industry Council

             WIA    Workforce Investment Act

             WIB    Workforce Investment Board




Formation of WIBs                      21                            2E-03-390-0001
